   AUDIT REPORT 

   Implen~entationof the 

Enterprise Resource Planning 

      Financial System 

        Number A-03-07

        March 3 1,2004
                                       SUMMARY

The Office of the Inspector General audited project management controls over the
implementation of the Enterprise Resource Planning (ERP) financial system. Our
purpose was to evaluate the planning, controls over, and implementation of the ERP
financial system.

The ERP financial system project has experienced significant schedule and cost overruns.
The Institution planned to implement nine ERP financial modules in two phases: The
first phase included three modules and was scheduled to be implemented by October
2002 at a cost of $6.2 million. The second phase included six modules and was scheduled
to be implemented by October 2003 at a cost of $10 million. Instead of accomplishing
these project management goals on schedule and within budget, the Institution imple-
mented the first three modules at a cost of $18.6 million.

Several circumstances contributed to the system not being implemented on schedule or
within budget including the following:

        Insufficient staff to fully support the project
        Lack of budgetary control
        Lack of experience in implementing the software
        Weak project management controls

The schedule and cost overruns will require the Institution to obtain either additional
funding to complete the remaining modules or to accept fewer financial modules than
planned, thereby diminishing the accounting, financial, and reporting benefits of the
ERP.

In addition, current ERP financial management reports do not meet internal or external
management needs. A fundamental misunderstanding between the Office of the Chief
Financial Officer, the Office of the Chief Information Officer, and the units of how
reporting and operational training needs would be met resulted in the system not meeting
user needs. Furthermore, Institution staff was frustrated, and confidence in the system
deteriorated significantly.

Finally, the current ERP contract changed from a fmed-price contract to a cost-
reimbursement contract. This change increased the Institution's risk of project cost
overruns since the responsibilityto control costs shifted from the contractor to the
Institution. In addition, many tasks under the cost contract could be separated into
different contracts that could be individually monitored to minimize costs.

Therefore, we made the following recommendations to improve controls over the
remainder of the ERP implementation project.

We recommended that the Chief Financial Officer request the realignment of budgetary
resources from the Office of the Chief Information Officer to the Office of the Chief
Financial Officer to assist in the remaining financial modules and establish the ERP
financial system implementation as a cost center or project in order to accumulate and
track project costs for management and asset capitalization purposes.
We recommended that the Chief Information Officer coordinate with the Chief Financial
Officer to establish a formal process to track and resolve implementation quality control
issues and recommendations; comply with the Smithsonian Institution's life cycle
management policy by establishing implementation controls to formalize the
requirements approval and acceptance process; and obtain a status assessment of all
current ERP-defined financial needs, including training and reporting, and prioritize
them to meet Institution needs.

Also, we recommended that the Chief Information Officer coordinate with the Director
of the Office of Contracting to review and assess the current contract oversight and type
and determine if a different contract structure is necessary to adequately support the
development and implementation of the remaining modules of the ERP.

The Chief Financial Officer and the Chief Information Officer concurred with our
recommendations and provided implementation plans. We believe that these
implementation plans are responsive to our recommendations.

Although management concurred with the recommendations, they disagreed with some
aspects of the report. They claimed that the financial system was in an operational
maintenance mode and disagreed with our conclusion that development and integration
were being performed simultaneously during fiscal year 2003. They also disagreed with
our financial analysis and with our conclusion that Office of Management and Budget
and congressional reports were inaccurate concerning amounts spent on implementation
and development. In addition, they disagreed with our conclusion that there was no
significant decrease in implementation and development spending during the fiscal year
2003 continuing resolution period. They claimed a 25-percent reduction during the
continuing resolution period from November 2002 through March 2003.

We believe that the system development team continued to perform implementation and
development work during fiscal year 2003, based on the contract integrator's reports that
showed continued work involving new and unfilled requirements such as data
conversion, purchase order and payment processes, and incomplete Treasury and user
reporting requirements. Also, we believe that our financial analysis clearly and correctly
depicts the appropriations and expenditures. Finally, we stand by our analysis and
conclusion that there was no significant decrease in costs as was reported to the Congress
and the Office of Management and Budget. Our analysis identified an 8-percent decrease
in costs from October 2002 through February 2003, the period of the fiscal year 2003
continuing resolution.
                                                 TABLE OF CONTENTS 





 .
1 Introduction .....................................................................................................................................1 


       A. Purpose ....................................................................................................................................1 


       B.Scope and Methodology ..........................................................................................................1 


       C .Background .............................................................................................................................1 


2. Results of Audit ................................................................................................................................3 

       A. Financial System Implementation Budget and Schedule .....................................................3 


        B. Phase I Financial System Implementation Usefulness .......................................................11


        C . Implementation Contract ...................................................................................................15 


Appendix A.           Financial System Budget to Actual Analysis .............................................................18 

Appendix B.           Implementation Status Report Example ..................................................................20 

Appendix C.           Fiscal Year 2003 Continuing Resolution Effect on Implementation ......................21 

Appendix D .          Prior Office of the Inspector General Audits ....................................................2                   2

Appendix E.           Management's Comments       ........................................................................................
                                                                                                                                         24 

Appendix F.           Summary of Management's Disagreements and Our Response .............................44 


                                       ABBREVIATIONS AND ACRONYMS

                 ERP                                     Enterprise Resource Planning
                 OCFO                                    Office of the Chief Financial Officer
                 OCIO                                    Office of the Chief Information Officer
                 SD                                      Smithsonian Directive
                                        INTRODUCTION
A. Purvose

Our purpose was to evaluate the planning, controls over, and implementation of the ERP
financial system.

B. Scope and Methodolog

The audit scope covered the ERP financial system implementation and was conducted
from April 16,2003, to December 24,2003, in accordance with generally accepted
government auditing standards. The audit methodology consisted of the following:
      Identifying and reviewing applicable Institution policies and procedures related to
      the system development life cycle and project management
      Evaluating project planning and budgetary and schedule controls

As part of our review, we conducted interviewswith staff from the Office of the Chief
Financial Officer (OCFO);the Office of the Chief Information Officer (OCIO);the Office
of the Treasurer; the Office of Sponsored Projects; and staff representing the Deputy
Secretaryand Chief Operating Officer, the Under Secretary for Science, and the Under
Secretaryfor Art. Through interviews,we gained an understanding of the processes used
to plan and monitor the ERP financial system project.

C. Background

The Institution is in the midst of replacing and modernizing its financial and human
resources management systems. The initial focus was on replacing the fragile and
unreliable Smithsonian Financial System by October 1,2002,with an ERP, a modern
commercial financial management software product. The Smithsonian Financial
System was technologically obsolete and has not been vendor-supported since 1997.

An ERP Team has been established to manage the financial system implementation and
is composed of representatives of the OCFO, OCIO, and working groups representing
Smithsonian staff and the implementation contractor. Ensuring financial requirements
are identified and that the system is useful, as well as overseeingthe overall project, is
the responsibility of the sponsor, the OCFO. Budgeting, technical implementation of
the sponsor financial requirements and oversight of the contractor is the responsibility
of the OCIO.
The ERP Team planned to implement the financial system in two phases budgeted at
$16.2 million.'
       Phase I: financial modules including General Ledger, Accounts Payable and
       Purchasing were to be deployed by October 2002 and were budgeted at $6.2
       million for 2001 and 2002.
       Phase 11: financial modules including Procurement, Projects, Budget, Grants,
       Accounts Receivable, and Asset Management were to be deployed by October
       2003 and were budgeted at $10 million for 2002 and 2003.

' The May 2001 System Boundary Document for the Enterprise Resource Planning System contains the
Phase I and Phase I1 deployment schedule. The budgeted amount for Phase I and I1 are from the annual
Office of Management and Budget appropriation submissions.
The mission of the ERP financial system is to help the Chief Financial Officer and
Smithsonian Institution management at all levels manage financial information
successfully. This information will be used by managers throughout the Institution for
proactive decision-making to support investment decisions and core financial activities
that include:
        Budget formulation, justification, execution, and financial accounting
        Preparation of financial statements and reports, payroll, purchasing, and asset
        management
The goals of the Smithsonian ERP system are to:
       Eliminate individual unit financial systems (known as cuff records)
       Streamline labor-intensive processes and improve the quality, timeliness, and
       accuracy of financial data
       Provide real-time financial and human resources management reporting

Smithsonian ERP project success is contingent on meeting the following critical success
factors, as defined in the May 2001 Smithsonian Institution System Boundary Document:
        Business Process: Adapting Smithsonian processes to the ERP software product to
        streamline business processes and assure speedy, cost-effectiveimplementation.
        Funding: Adequately funding the project to support production and
        enhancements.
        Usefulness: Implementing an ERP system that serves the needs of all users from
        the lowest unit financial manager to the Secretary.
        Training: Providing training and support to staff administering and using the
        ERP system, and providing administrative workforce training in moving from
        paper processing to electronic processing.
                                RESULTS OF AUDIT

A. Financial System Implementation Budnet and Schedule

The ERP financial system has not been fully implemented within budget or on schedule.
The Institution budgeted approximately $16.2 million to implement nine financial
modules by October 2003. As of November 2003, approximately $18.6 million has been
spent, with only three of the nine modules implemented. The actual completion is now
estimated to be December 2005 for the remaining six financial modules. Several
circumstances contributed to the system not being implemented within budget or on
schedule. These circumstances include:
        Insufficient staff resources to fully support the project
        Lack of budget control
        Contractor's lack of experience in implementing the latest ERP version
       Weak implementation system controls

The ERP project cost overrun and schedule slippage will require the Institution either to
obtain additional funding to complete the remaining modules or to accept fewer financial
modules than planned, thereby not realizing the full accounting, financial, and reporting
benefits of the new system.

Background

Smithsonian Directive (SD) 115,Management Control, revised July 23, 1996,lists
standards that apply to Institution units. In particular, the directive requires managers to
take systematicand proactive actions to develop and implement appropriate, cost-
effective management controls to ensure that assets are safeguarded against waste, loss,
and misappropriation.

SD 920, Life Cycle Management, August 5,2002, requires that certain steps in the design,
development, and implementation of a system be logically and sequentially planned.
There are six defined implementation steps:
   1. Initiation                                      4. Development and testing
   2. Concept and requirements                        5. Deployment
      definition                                      6. Operations
   3. Detailed analysis and design

SD 920 specifies that end-users should participate early in life cycle activitiesin order to
validate financial requirements. In other words, those who will be using the system
should be consulted early on to make sure that the system will meet their needs,
The General Accounting Office publication, Creating Value through World-Class Financial
Management, GAOIAIMD-00-134, April 2000, states that to be meaningful, financial
information should be useful, relevant, timely, and reliable. Relevant financial
information should be presented in an understandable, simple format with appropriate
amounts of detail and explanation. Best practices for accounting and financial
management require accurate and timely financial information for planning and
decision-making.
Results of Review

The ERP financial system has not been fully implemented within budget or on schedule.
The Institution budgeted approximately $16.2 million to implement nine financial
modules by October 2003. As of November 2003, however, approximately $18.6 million
has been spent with only three of the modules im~lemented.~he actual completion is
now estimated to be December 2005 for the remaining six financial modules. (See
appendix A for the new schedule.) Several circumstances contributed to the system not
being implemented within budget or on schedule. These circumstances include
insufficient staff resources to fully support the project; lack of budget control; contractors'
lack of experience in implementing the latest ERP version; and weak implementation
system controls.

Staff Resources. During the establishment of the ERP project, several circumstances
regarding staff resources negatively impacted and delayed the ERP project
implementation. For example, OCFO systems staff was reassigned to the OCIO; some
staff that remained within the OCFO and some system staff that were transferred to the
OCIO left the Institution; the ERP project required the OCFO to assume more tasks
and responsibilities with fewer staff;and no additional funding was provided to the
OCFO to support the project. In addition, the Institution did not have a Comptroller
in place for several months. Only one Office of the Comptroller person was available
full-time to work on the ERP project. One person alone without supporting staff was
insufficient to provide the management oversight necessary to keep such a complex
project on schedule and within budget. Also, staff with institutional knowledge that
remained within the OCFO were unable to dedicate their attention full-time to the ERP
project while also performing their daily responsibilities.

Budget Control. There were no detailed cost and schedule project management reports
by phase or module as would normally be used for project management and variance cost
monitoring. It is the Institution's policy that controls be established to assure assets are
safeguarded and managed properly. The ERP implementation was not established as a
cost center or project, even though it was noted in the April 2,2003, KPMG Management
Letter supporting the 2002 fiscal year financial statements to the Audit and Review
Committee of the Board of Regents. Establishing the ERP implementation as a cost
center or project would have been a means to monitor costs and schedule."

Latest ERP Version Implemented. The Institution chose to implement the latest version
of the ERP system because the ERP team believed that, in the long run, it would be
simpler and less costly. However, implementing that version increased project cost and
lengthened the development schedule. According to the ERP Team, the latest version
lacked system documentation, and the technical experts did not have experience with it.
In essence, the experts were learning how to use the new release at the same time as the
Institution's staff.

System Implementation Controls. In addition to the lack of project budgetary controls,
system implementation controls were weak, increasing implementation costs and


 See appendix A for a budget-to-actual financial analysis.
' The Institution was unable to effectively calculate its 2003 annual capitalization of the ERP as an asset for
the annual financial statements audit.
schedule overruns. The audit identified three structural weaknesses that undermined
controls over the implementation of the system.

First, the ERP team did not address weaknesses identified by the independent quality
assurance contractor during implementation.' Because these weaknesses were not
addressed, additional time and funding were necessary to meet the financial system phase
I requirements after the deployment in October 2002. Throughout the implementation
process, the quality assurance contractor revealed significant deficiencies and made
recommendations in the project requirements and system documentation. Specifically,
the contractor identified a risk that the system would not meet user requirements.5 Also,
there was no process to track the status of the quality assurance contractor's
recommendations or how the identified weaknesses were resolved. Because these
weaknesses were not addressed while the system was being implemented, additional
development and implementation time and funds were needed. For example, additional
time and funds were expended to address data conversion from the previous financial
system to the ERP, and to address implementation of user requirements such as
reporting, wire transfers, payroll and system interfaces. (See appendix D for examples of
previous audit reports issued by this ofice on requirement and user needs deficiencies.)

Second, the ERP financial system development and implementation stages were being
performed simultaneously, and the requirements approval and acceptance process was
not formalized.
Life cycle management
requires that certain events be                  eRP ContrIded mpbmentaUonPhurYo. Actual
systematically planned,
managed, and monitored
before moving forward to the
                                          I
                                   Fiscal Year          ( 2001 1 2002                    2003             I
next phase. The
accompanying chart illustrates
the contractor's planned and
actual implementation.
Implementing a system while
the requirements are being          Actual lrnpkmenlallan
defined increases the risks that
the system being implemented
will not meet user needs and
that subsequent modifications
will be necessary after
implementation.


' As part of the development and implementation plan, the Institution hired a contractor to perform
independent validation and verification as a form of implementation quality assurance. The contract was
to provide a layer of quality control for the development, detailed design, requirements verification,
configuration, testing, and deployment phases. This independent technical assessment was to ensure the
system being developed was following a formal system development life cycle; to identify errors and
exceptions; and to recommend changes to avoid or minimize future occurrences.
  For example, the quality assurance contractor found that requirements were not traced to components of
the technical design or test cases; delivered documentation was incomplete; system interfaces validation was
limited to "observance" as opposed to evaluating the interface in a test environment; requirements were
fluid and changing; and interfaces and other system components will require modifications.
Third, the requirements approval and sponsor acceptance processes were either not
documented or non-existent. The ERP steering committee that is responsible for
overseeing the ERP implementation did not formally document its minutes and,
therefore, there is no record of how important decisions were made or what issues were
discussed.

According to the Chief Information Officer, the ERP financial system did not need to
follow the traditional life cycle management process because the ERP was a commercially
developed system and the traditional development and implementation documentation
process normally used for software development was not nece~sary.~      In addition,
according to the Chief Information Officer and the ERP Project Manager, documenting
the approval process is not necessary because, in their experience, the act of a sponsor
approving requirements and accepting a system is an unnecessary paper transaction.
Nevertheless, we were informed that there was some level of requirements approval and
user acceptance by means of electronic mail and undocumented interviews by different
levels of staff across the Institution. However, some of these staff may not have been in a
position to understand all of the Institution's financial requirements.

The ERP cost overrun and schedule slippage have also had the following significant
impact for the Institution:

    1. 	 Either more funding will be needed to complete the remaining modules and
         modify what has been implemented, or the Institution will have to accept fewer
         financial modules than planned, thereby lessening the financial, accounting, and
         reporting benefits. Moreover, the Institution's prior recordkeeping systems (cuff
         records) will need to be maintained.
    2. 	 The system is not meeting user expectations and needs. Previous audits by this
         office have identified examples of how the ERP system has failed its intended
         users. (Refer to page 11 and appendix D in this report for further details.)
    3. 	 The lack of documentation of system development and implementation has
         resulted in the system sponsor being unsure of the status of requirements. (See
         appendix B for a suggested status report format example.)
    4. 	 System implementation status reports to the Office of Management and Budget
         and Congress were not accurate. For example, the Institution's 2004 ERP budget
         request inaccurately reported the amounts for development and maintenance
         costs,' and the August 6,2003, quarterly ERP progress report to the Committee on
         Appropriations, U.S. House of Representatives, inaccurately reported the reason
         why the ERP financial system phase I1 was not started on time. (See appendix C
         for details.)




 The ERP system is a commercial off-the-shelf system that has gone through a level of software
development and testing. However, integrating such a system would still require tailoring it to the
Institution's specific needs.
'The fiscal year 2004 budget request to the Office of Management and Budget did not accurately represent
amounts for development and maintenance. Our financial analysis, which was reviewed by the
independent financial auditors for the 2003 Institution financial statements, determined that approximately
$7.1 million was spent for development and asset capitalization purposes and approximately $3.8 million
for maintenance expenses.
Conclusion

The Smithsonian Institution's strategic plan goal for achieving management excellence is
in jeopardy because of the lack of project management controls over the implementation
of the ERP system. The users are extremely frustrated with the current status of the new
system, lack confidence that the system will meet their financial needs, and have not given
up their "cuff records." We believe that the impact of these issues could have been
minimized by proper oversight and project tracking. Although this report's emphasis is
on the ERP project, the Institution has been systematicallyunsuccessful in managing and
tracking complex projects. (See appendix D for further information.)

The following chart summarizes the initial Smithsonian Institution critical success
factors, as defined in its System Boundary Document, and offers an assessment of four
areas.




              Providing training and support to staff
              administering and using the ERP system.
 Training
              Providing administrativeworkforce training in
              moving from paper processing to electronic
              processing.

Recommendations

We recommended that the Chief Financial Officer:

    1. Request the realignment of budgetary resources from the OClO to the OCFO to
       support and assist the OCFO in implementing the remaining financial modules.

    2. Establish the ERP financial system implementation as a cost center or project to
       accumulate and track project costs for management and asset capitalization
       purposes.
   3. 	 Ensure that future congressional and Office of Management and Budget status
        reports are more accurately prepared and presented.

Management Comments

       Concur. Funds will be realigned within the ERP program from the OCIO ERP
       Project to establish a dedicated functional team to support the implementation of
       the remaining financial system software modules and to guide the enhancement of
       the financial system software modules in operation. This action will further
       increase the project's overall cost and cause further schedule slippage. However,
       this action is essential to the system's future success. The program will be re-
       baselined and a new budget and schedule developed once the details of the
       realignment are complete. Target completion date: July 30,2004.

   2. 	 Concur. The Office of Planning, Management, and Budget in collaboration with
        the OCIO will establish the necessary Institutional project codes to assign
        obligations and expenditures directly to the ERP project by phase (both financials
        and human resources) and by development and operations and maintenance.
        Target completion date: July 30,2004.

   3. 	 Concur. Management agreed that reports to the Congress should be accurate.
       However, management strongly disagreed with the audit report conclusion that
       the implementation status reports to the Office of Management and Budget and
       the Congress were not accurate. Each quarterly report included a general
       description of the project, progress against plan, and the Federal funds obligated
       during the reporting period. The Institution provided accurate information and
       did not hide problems. The third quarter report cited by the audit report was
       prepared in June 2003 and was accurate when it was written. Management is
       committed to ensuring that these reports are issued more timely and reflect the
       latest information available about the program. Management will also add the
       tracking of cost vs. budget by ERP Project phase to the monthly performance
       reports provided to the Deputy Secretary and Chief Operating Officer. Target
       completion date: June 30,2004.

Office of the Inspector General Response

       Management's comments and planned actions are responsive to the report's
       recommendations. Management disagreed with the audit conclusion that reports
       to Congress were inaccurate. Management reported to Congress that ERP phase
       I1 implementation plans were scaled back due to uncertainties with the 2003
       budget during the continuing resolution period. Our analysis of the
       implementation costs shows that there was no significant decrease in average
       monthly implementation costs during the continuing resolution period.
       (Appendix F summarizes management's disagreements and our response.)
Recommendations

We recommended that the Chief Information Officer coordinate with the Chief Financial
Officer to:

   1. 	 Establish a formal process to track and resolve implementation quality control
       issues and recommendations.

   2. 	 Obtain a status assessment from the ERP contractor of all current ERP-defined
        financial requirements-to date and require a formal implementation status report
        at least monthly.

   3. 	 Evaluate the current status of outstanding requirements to prioritize them to meet
       the Institution's needs.

   4. 	 Comply with the Smithsonian Institution's life cycle management policy by
        establishing both a formal process to ensure requirements are approved by an
        OCFO designee and a formal user acceptance process for the remainder of the
        project.

Management Comments

    1. 	 Concur. The OCIO has established a formal system development life cycle
       management process that includes processes to track and resolve implementation
       quality control issues and recommendations. The life cycle management
       processes are defined in SD 920 and a series of supporting technical standards and
       guidelines published between December 2002 and August 2003. The OCIO also
       established a Technical Review Board as part of the process. The Board's
       objectives are to: (1) improve the overall level of project success, system quality,
       and productivity; and (2) ensure that risk is reduced to an acceptable level by
       completing assessments at key project milestones. We will ensure that future ERP
       Financial System Phases are reviewed by the Board. ERP Human Resource
       Management System progress has already been reviewed by the Board. Target
       completion date: completed.

   2. 	 Concur. The OCIO will rely on the quality assurance contractor to assess the
       current ERP-defined financial requirements and prepare a Technical Analysis
       Report on the findings. In addition, the system integration contractor will
       provide a monthly status assessment report. Target completion date: July 30,
       2004.

    3. 	 Concur. The OCIO and OCFO will jointly review all outstanding issues,
         problems, and requirements, and the OCFO, with technical guidance from the
         OCIO, will prioritize them. Target completion date: September 30,2004.

   4. 	 Concur. The OCIO and OCFO will work together to develop a Service Level
        Agreement that defines the requirements approval and user acceptance processes.
        The Agreement will follow the guidance contained in the Life Cycle Management
       Manual TSG-IT-920-01 dated December 6,2002. Target completion date: July30,
       2004.

Office of the Inspector General Response

Management's planned actions are responsive to the report's recommendations.
B. Phase I Financial System Implementation Usefulness

Current ERP financial system management reports are cumbersome, inefficient, and do
not meet internal or external management needs. This condition existed because there
was a fundamental misunderstanding of how reporting and operational training
requirements would be met. In addition, two ERP plans, the "train the trainer" plan and
help-desk plan, were not fully established, making the system less useful. As a result, the
system is not meeting user needs, Institution staff are frustrated, and confidence in the
system has deteriorated significantly.

Background
System Boundary Document for the Enterprise Resource Planning System, May 2001 -- The
objective of the ERP system is to achieve management excellence by October 2005
through modernizing Smithsonian financial and accounting controls, human resource
management processes, and management information systems by:
       Implementing an ERP system that serves the needs of all users from the lowest
       unit financial manager to the Secretary
       Bringing to the Institution best practices for administrative processes and
       thoroughly training staff in order to accept the new electronic work environment

ERP Training Plan, June 7,2002 -- The purpose of the training plan for the ERP system
was to ensure a properly trained workforce that can process financial transactions and
access financial management data for analysis and reporting in a timely and efficient
manner. Users need to be able to enter and get data from the system so that they can
better perform their day-to-day functions. The training plan also required that the
contractor provide "train the trainer" courses to Institution representatives and
professional trainers. The trainers would then deliver training to end-users through
classroom instruction and hands-on exercise sessions. Training manuals would also be
developed and provided. In addition to the training, a help-desk support system was to
have been implemented for end-users and operational staff both at the time the system
was deployed and afterward.

Results of Review

Discussions with the Comptroller, Treasurer, Sponsored Projects, and museum financial
staffs revealed that several critical financial reporting needs have not been met. For
example, the Office of the Comptroller required the ERP system to produce reports for
the U. S. Treasury as well as reports to support the annual financial statements audit. The
Office of the Treasurer required the ERP system to produce reports on endowments and
major Institution projects for investment and cash flow management. The Office of
Sponsored Projects required the ERP to produce grant expenditure reports and an
accounts receivable aging report. The museums required the ERP to produce museum-
level balance sheets, profit and loss statements, and project-level reports. The ERP
contractors have provided numerous reports to address these requirements but,
according to these offices, the reports that were provided do not meet user needs and have
been inaccurate.

During November 2003, we provided a questionnaire to the Under Secretary for Science,
the Under Secretary for American Museums and National Programs, and the Director of
the International Art Museums Division. We asked these offices to forward the
questionnaire to unit representatives who would be in a position to provide constructive
feedback regarding the ERP financial system implementation and complete the
questionnaire. The following table presents the results of this survey:




                                                                                        I
                                                                                  1
               Meet Financial Needs
               Does the ERP system    meet   your   financial   needs as1   "-'   f




We believe the OCFO, the OCIO, and the user community had fundamentally different
understandings of how reporting and operation training requirements would be met. For
example, according to the OCIO, the ERP system can provide the type of reports the users
need, and it is the responsibilityof the users to learn how to use ERP to produce the
needed reports. On the other hand, the Ofice of the Comptroller and other unit users
believed that the OCIO would provide training specificto their needs and that ERP would
deliver the reports they require. Moreover, the "train the trainer" plan and the help-desk
were not fully implemented, making the ERP system less useful and causing confusion
and frustration among users.

These misunderstandings and the deficiencies in training have resulted in the following:
       The Office of the Comptroller has been unible to meet federal reporting and trial
       balance requirements on time, and required financial reports to support the
       annual financial statement audit have been difficult to obtain.
       The Office of Sponsored Projects and the Office of Development, which manage
       approximately $204 million a year in grants, contracts, and gifts, are unable to
       accurately and timely bill grants and contracts. If expenses incurred are not
       identified timely to a grant or contract these expenses must be absorbed by the
       ~nstitution.' For example, according to the Office of Sponsored Projects, the
       office manually prepared approximately 1,012grant reports during fiscal year
       2003, of which 571 (56.4 %) were billed late. In addition, there is a risk that
       grantors will perceive the Institution as unable to manage its grants and therefore
       reconsider future grants to the Institution.
       The museums are unable to easily determine their financial position and manage
       projects effectively.
       The Office of the Treasurer has a diminished ability to manage cash flow on major
       projects.


 The fiscal year 2002 annual Smithsonian audited financial statements show $96.1 million in government
grants and contracts and $108.1 million in contributions.
Reports that have been available require manual maniiulation to fully meet internal and
external needs. In addition, Institution staff revealed that the units are dissatisfied with
the training program and confused about how to obtain help-desk assistance.

Conclusion

The inability of users to obtain accurate and timely financial reports to meet their
management responsibilities has hampered the Institution's effort to remove unit cuff
records. Institution units are more inclined to maintain their cuff records or even
develop new records systems because the ERP system is not providing the necessary
financial information.

Recommendations

We recommended that the Chief Information Officer, in coordination with the Chief
Financial Officer:

    1. 	 Determine which ERP reporting requirements have not been fully addressed and
       establish a plan that prioritizes these outstanding needs to meet the reporting
       needs of the Office of the Comptroller, the Office of Sponsored Projects, the
       Office of Development, the Office of the Treasurer, and the other units.

    2. 	 Establish a process for reviewing user help-desk assistance requests to determine
         what remedies are necessary to address user needs, such as additional training or
         Chief Financial Officer bulletins.

Management Comments

    1. 	 Concur. The Chief Information Officer will work with the Chief Financial Officer
         to determine which financial reporting requirements have not been met and
         establish a prioritized plan to meet the Institution's financial reporting needs.
         Target completion date: September 30,2004.

       Management pointed out that there are now 114 reports available in Peoplesoft
       (ERP), half of which have been 'custom-developed. Management agreed, however,
       that the Peoplesoft-provided financial reports do not meet internal management
       needs or federal reporting needs.

       Management claimed it is an overstatement that there was a "fundamental
       misunderstanding" between the Office of the Chief Financial Officer and the
       Office of the Chief Information Officer on how reporting requirements would be
       met, and that staffing shortfalls in the Comptroller's Office meant that subject
       matter experts were not readily available to define reporting requirements.
       Management does agree that communication between the two offices would have
       benefited from a more formal reports requirements and review process.

        Management also agreed that additional training is needed on standard and
        customized reports. Management disagreed that there was a fundamental
        misunderstanding between the Office of the Chief Financial Officer, the Office of
        the Chief Information Officer, and the units on how training was to be conducted.
       Management stated that the "train the trainer" approach failed because the ERP
       Work Group members did not have the time or requisite skills to develop and
       deliver ERP training. Although there were 131 formal ERP training classes
       provided to 1,661 ERP users, management agreed that the training did not meet
       certain Institution needs.

   2. 	 Concur. The Chief Information Officer will work with the Chief Financial Officer
        to establish a process for reviewing user help-desk assistance requests to identify
        widespread problems and to determine whether the problem can be resolved
        through training, Frequently Asked Questions, and/or CFO Bulletins, or whether
        revisions to the ERP Financial System software are needed to correct errors and
        make enhancements. Target completion date: August 3 1,2004.

       Management noted that Help Desk assistance was communicated by CFO Bulletin
       #09-005 and CFO Bulletin #00-005 in October 2002. These bulletins provided
       information about help desks available to ERP users, using the Help Desk
       automated problem reporting tool, and the ERP web site. Support was also
       available by telephone, e-mail, and using the automated help desk tracking system.
       The ERP Support function was transitioned to the central OCIO Help Desk in
       September 2003, as the support volume decreased, and the OCIO Help Desk staff
       was trained to support the ERP. This transition was conveyed to the user
       community by Smithsonian-wide e-mail and by notices on the ERP web site.

Office of the Inspector General Response

Management's planned actions are responsive to the report's recommendations.
C. Implementation Contract

The current ERP contract elements of design, development, implementation, training,
and maintenance support changed from a fixed-price contract to a cost-reimbursement
contract. This change was requested by the OCIO because it was believed necessary to
respond flexibly to the Institution's system implementation requirements. However, this
change increased the Institution's risk of project cost overruns since the responsibility for
monitoring cost controls and efficiency shifted from the contractor to the Institution. In
addition, the current contract scope now includes many tasks that could be separated into
different contracts and monitored separately to minimize costs.

Background

The Federal Acquisition Regulation prescribes policies and procedures unique to the
acquisition of commercial items. A commercial item is any item that is of a type
customarily used by the general public or by non-governmental entities for purposes
other than governmental purposes, or has been offered for sale, lease, or license to the
general public. Federal Acquisition Regulation section 12.107 requires agencies to issue
firm-fmed-price contracts for the acquisition of commercial items.

The Federal Acquisition Regulation states at section 16.101 that a wide selection of contract
types is available to the Government and contractors in order to provide needed flexibility
in acquiring the large variety of supplies and services required by agencies. The contract
types are grouped into two broad categories: fxed-price contracts and cost-reimburse-
ment contracts. A time-and-materials contract is a type of cost-reimbursement contract.
In the course of an acquisition program, changing circumstances may make a different
contract type appropriate in later periods than that used at the outset. In particular,
contracting officers should avoid protracted use of a cost-reimbursement or time-and-
materials contract after experience provides a basis for firmer pricing.

Under fixed-price contracts, the contractor has full responsibility for the performance
costs and resulting profit (or loss). A time-and-materials contract provides no profit
incentive to the contractor for cost control or labor efficiency. The Federal Acquisition
Regulation states at section 16.301 that a cost-reimbursement contract may be used only
when appropriate Government surveillance during performance will provide reasonable
assurance that efficient methods and effective cost controls are used.

Results of Review

The Institution awarded an initial fixed-price contract for ERP business analysis and
requirements definition on June 29,2001, for $1.6 million. The contract required
financial system requirements analysis and the development of documentation to support
an ERP system that will satisfy the Institution's financial needs. The contract also
included many options. Option 1 included the design, development, and implementation
of an ERP system in accordance with the Institution's requirements for $3.7 million.
Together, the initial award and Option 1 costs were estimated to be $5.3 million.

During June 2002, the OCIO recommended to the Ofice of Contracting that the fxed-
price contract be converted to a time-and-materials contract beginning when Option 1
was exercised. Option 1 was exercised on July 3 1,2002, and a time-and-material type
contract was awarded, increasing the contract cost by approximately $700,000 to $4.4
million.

According to the OCIO, exercising Option 1 as a cost-reimbursement contract as opposed
to a fured-price contract was necessary for the Institution and contractor to have the
ability to respond flexibly as the business processes for the Institution were still being
defined. In addition, the OCIO believed the interests of the Institution would be
protected by the close and careful management by the project manager and contracting
officer's technical representative, and by the independent validation and verification
process.

The contract change provides little incentive for the contractor to control costs and
increase efficiencies. We believe that the contract change contributed to the ERP project
cost o v e r r ~ n . ~

In addition, the current contract, under which the Institution is charged on an hourly
basis, includes many aspects of the development, implementation, and maintenance of
the ERP project that could be more economically and efficiently contracted for under
separate contracts and different contract types.

Another result of the change in contract type was that it required the Institution to
monitor and control contract performance and costs more aggressively. The ERP project
manager was not only responsible for overseeing the technical ERP implementation but
was also required to oversee and manage the ERP contract. We believe that having one
person responsible for so many project aspects, including areas outside their expertise,
diminished that person's ability to perform all these functions effectively and increased
the potential for error. These risks could be mitigated by adding additional resources and
expertise to the project.

Conclusion

An evaluation of the risks, controls, and contract type for the contract services of design,
development, implementation, and maintenance would be beneficial to ensure costs and
monitoring controls are in place for the six remaining financial and the human resource
modules of the ERP project.

Recommendations

We recommended that the Chief Information Officer coordinate with the Director of the
Office of Contracting to:

    1. 	 Review the current contract structure and type and determine whether a different
        contract structure is necessary to adequately support the development and
        implementation of the remaining modules of the ERP.

    2. 	 Assess the current contract oversight process to determine if additional contract
         expertise is needed for monitoring the development and implementation of the
         remaining modules of the ERP.

 As of November 2003 only three of the nine financial modules have been implemented, even though funds
appropriated for the nine modules have been spent.


                                                 16
Management Comments

   I. 	 Concur. The Chief Information Officer will work with the Director of the Office
        of Contracting to identify work that can be issued as fixed-price task orders and
        use fixed-price task orders wherever practical. Target completion date: May 31,
        2004.

       Management noted that for a system development project, a cost-plus-award
       contract allows for unknowns as requirements are defined and refined during the
       development process. According to management, neither the Office of
       Contracting nor OCIO has the staff necessary to administer such a contract.
       Nevertheless, management changed the contract type. Management agreed that a
       review of tasks such as developing and providing training can be issued as fixed-
       price task orders.

   2. 	 Concur. The Institution will strengthen reviews of the contract system
        integrator's progress and performance through monthly reviews. The OCIO ERP
        Financial System Project Manager will lead the monthly reviews. The reviews will
        be attended by the Institution's contract system integrator, representatives of the
        ERP team of functional and technical experts, the CFO and/or CFO designated
        staff, and users from Smithsonian units as appropriate. Target completion date:
        April 30,2004.

       The purpose of the monthly review will be to assess progress and adherence to the
       schedule and budget; to identify problems; and to direct any necessary corrective
       actions. Examples of issues to be addressed are: ( I ) the status of modification
       requests or discrepancy reports; (2) implications on the cost and schedule of
       requested changes; (3) technical problems encountered by the contract system
       integrator; (4) implications and trade-offs for implementing requested
       customizations to the commercial software; and (5) problems encountered by the
       contract system integrator with obtaining functional requirements.

Ofice of the Inspector General Response

       Management's planned actions are responsive to the report's recommendations.
Appendix A. Financial System Budget to Actual Analysis




' Phase 1 budgeted amount of   $6,245,0000and Phase I1 of $9,959,000is from OClO Office of Managemen1and Budget annual appropriation submittals.
a. The 2003 actual Phase I integration cost of 56,587,000represents contracted effort, which includes costs for maintenance, enhancement, development, and trouble-shooting that could not be
separated for each category.
b. The 2003 actual salaries of $2,154,000could not be separated between Phases and is composed of:
                                                $1,682,000Salaries
                                                  $430,000 Benefits 

                                                   $42,000 Awards/Bonuses 

                                             $2,154,000 

c. The ZOO2actual training amount of$124,000was included in Phase I because Phase I1 efforts had not started in 2002. The actual training costs incurred during 2003 were undeterminable for
training associated with Phase I, Phase 11, or H R
d. The 5800,000budgeted amount in 2003 was excluded from the Phase I 2003 budget column because Phase I was planned to be completed by October 2002 and Phase II efforts would have
started, therefore requiring Phase I1 and IVV reviews in 2003.
Appendix A. Financial System Planned Budget to Actual Analysis (continued)



               ERP FinancialSystem Key Mlbstansrs Scbdub and CurrentStatus


          Fiscal Year                  I       2001               2002                   2003   I
          GUAP/Purchasing 

          Deployment October 

          2002 


          phase II: Pfocwement, 

          Projects. Budget. Grants, 

          Accounts Receivable. 

          and Asset modules                                                                         I

          Deployment October 

          2003
                                                           I                         I

            :,B *         ?3 .t   +   Planned
                                      Actual
                                  @ Planned L? Not Implemented




              2401 Planned Finanfiialrr Phases modifwtd to 8 phases durina 2043




         T                                              4*-*          +"a*
       Overall schedule                          hedule On schedule M~ssedschedule
              Appendix B. Implementation Status Report Example


                       Financial System Requirement Monthly Status Report for the Period Ending


                                                                            Status:
                                                                            (a). Implemented                                         Total Module
                                                                            (b). Tested
                                                                            (c). Approved
  Module      Requirement    Requirement   Sponsor    Designated            (d). Customization     Schedule           Actual
Requirement   Description     Defmition    Approval    Point of    Priority (e). Rejected        Implementation   Implementation .
    ID        (High Level)      Date        Date       Contact              (0. Deferred              Date             Date

                                                                                                                                     Budget   Cost 

                                                                                                                                               to 

                                                                                                                                      Cost    Date
Appendix C. Fiscal Year 2003 Continuing Resolution Effect on Implementation

The Institution reported on August 6,2003, to the House Committee on Appropriations
that the reason why the ERP financial system phase I1 was behind schedule was because of
funding uncertainties caused by the 2003 continuing resolution and the lack of
information on when and how much the Institution would receive in its 2003
appropriation.'0 However, our review determined that although phase I1 work did not
begin, there was continued development and implementation work on phase I.

In fact, during the continuing resolution period, the contractor's billings were within the
average of monthly costs during the normally funded period. As the graph shows, the
average development and implementation costs were $563,980, with no significant change
in contract
       I--
            billing."
            -~                  -
                              ---   ~   ~ - - -   ---- -   ~ .. .         .. .   - - ~-----    ..   ~.-   ~-~~-       ~         -   -   -   ~

                                                                                                                                                -   I
                                       Integration Costs 

                              During Continuing Resolution Period 





                              Oct-02              Nov-02              Dec-02                  Jan-03                          Feb-03

                 --   -   ~
                                                  $563,980 Average Monthly Costs
                                                               ~-   .~~               ,. .--
                                                                                    ~..                           .       ~             .           1




10
  The continuing resolution covered the period of October 2002 through February 2003 as identified in the
Omnibus Appropriations Bill and signed into law on February 20,2003, Public Law 108-7.
  In July 2002, the OCIO requested that the contractor's contract type be changed from a fixed-price to a
time-and-materials type contract. The impact of this contract change to the project cost is discussed
separately in this report. In essence, the new contract is an hourly-based contract as opposed to a f ~ e d -
price contract. See page 15 for additional information.
Appendix D. Prior Office of the Inspector General Audits

Financial System Reports

Audit of Restricted Gifts, December 18,2003. In addition to findings specific to restricted
gifts, we determined that
     (1) controls could be improved for recording restricted gifts revenues and other funds
         that the Institution receives through wire transfers,
     (2) system interface modification prevented posting payroll during the period 

         October 2002 through March 2003, 

     (3) petty cash expenses were not promptly posted,
     (4) centrally billed travel was not posted in a timely manner, and
     (53 beginning balance reports were not made available to the units until July 2003,
         nine months after the October 2002 Phase I implementation date. As of
         September 24,2003, units across the Institution were still verifying their respective
         beginning balances.

Audit of the Purchase Card Program, December 3,2003. We determined that the Chief
Financial Officer did not ensure that the ERP working group that developed the purchase
card functional requirements included cross-functional experts. Also, cardholders and
fund managers could not use the ERP system to determine whether available fund
balances existed prior to making purchases because the system provided inaccurate fund
balances. Inaccurate fund balances have contributed to the erosion of confidence in the
ERP financial system information.

Audit of the Smithsonian Financial System, July 12, 1999. We determined that the
Smithsonian Financial System was not meeting internal management and reporting needs
of Institution units. The Smithsonian Financial System was not a user-friendly system
and did not provide the units with the financial information needed to manage their
various projects and activities related to project accounting, ad-hoc reporting, and
monthly reports.

Proiect Management Reports

Audit of the Project Management of the Steven F. Udvar-Hazy Center, July 3 1,2003. We
identified improvements needed in financial management and project controls for
monitoring budget-to-actual project revenues and expenses; planning system user
requirements; and procedures for monitoring contract modifications.

Audit of Project Management of the National Museum of the American Indian Mall
Museum, September 30,2002. We determined that the Office of Facilities Engineering
and Operations was not completing reconciliations of its internal project financial
tracking system records to the Institution's financial system in a timely manner. We
recommended that financial and management controls be strengthened by the ERP
project team defining requirements and reports needed for monitoring construction
projects.
Appendix D. Prior Office of the Inspector General Audits (continued)

Audit of Trust Fund Budget Process, September 28,2001. We determined that significant
management control weaknesses existed in the trust fund budget process. We
recommended improvements in two areas: (1) completeness of the trust fund budget
process and (2) controls to ensure that budgeted expenditures are not exceeded.

Audit of Financial Management of Traveling Exhibits, September 26,2001. We
determined that controls were inadequate due to inaccurate managerial cost accounting
information. We recommended that policies and procedures be established for
accumulating and reporting costs regularly, consistently, and reliably. Such cost
information is necessary for the Institution to manage its operations and to carry out its
fiduciary duties and responsibilities effectively. Routine cost information is fundamental
to any well-managed, cost-effective organization.

Audit of Project Management Related to the Purchase of the Victor Building, February 2 1,
2001. We determined that there was no dedicated project manager to ensure that prudent
business practices and generally accepted project management procedures were in place
and operating properly. As a result, there was a high risk of cost overruns on the projects,
delays in their completion, and added costs inevitably occasioned by such delays.
Appendix E. Management's Comments




1 0                    Smithsonian Institution 	                                                    Memo



           Date 	      March 5,2004

                  TO   Tom D. Blair, Inspector General

      TU
       I OUC           Sheila Burke. Deputy Secretary and Chief Operating ~ ~ i c e r &

                  cc   Lawrence M. Small, Secretary
         F~O
           	I,I        Dennis R. Shaw. Chief Information Office    $R& 

                       Alice C. Mamni, Chief Financial Office&22-, 



       Subject 	       Response to the Draft Report, Office of the Inspector General Audit A-03-07. 

                       Implementationof Enterprise Resource Planning Financial System 



                               Thank you for the opportunity to comment on the draft audit report on the
                       Institution's implementation of the Enterprise Resource Planning (ERP) Financial
                       System. While we disagree with some of the audit findings and conclusions with
                       respect to the causes of the difficultiesthe Institution encountered in the
                       development. implementation, and operation of the ERP Financial System, we
                       do agree that the audit's management-related recommendations will strengthen
                       the ERP project as we mwe forward with implementing additional modules and
                       enhancing the financial modules already in operation. It is our intention to
                       implement the audit's recommendations in combination with a broader set of
                       management improvements that we have developed in response to our own
                       internal review.

                                In the attachment, each issue presented in the audit report is addressed
                       in order. For the record, it is worth noting that the lnstitution has been supported
                       for the last 18 months by the new financial system. The Institution deployed
                       ERP Financials Phase 1 for production use on October 1,2002, consisting of
                       PeopleSott's general ledger, accounts payable, and purchasing modules and
                       portions of the projects. asset management, and accounts receivables modules.
                        In FY 2003, Smithsonian Institution units created 32,724 purchase orders and
                       78,994 vouchers, processed 89,705 purchase card transactions, and made
                       payments totaling $881 million using the ERP Financial System. There are
                       currently 1,220 active ERP user accounts.

                             Please direct any questions you may have regarding this response to
                       Dennis Shaw, Chief Information Officer, at 202-633-2800 or Alice Maroni, Chief
                       Financial Officer, at 202-275-2020.
Appendix E. Management's Comments (continued)


                                                                             Attachment I

         Issue 1: ERP Financial System Implementation Budget and Schedule

         "The ERP financial system has not been fully implemented within budget or on
         schedule. ...Several circumstances contributed to the system not being
         implemented within budget or on schedule. These circumstances include
         insufficient staff resources to fully support the project; lack of budget control,
         contractor's lack of experience in implementing the latest ERP version; and weak
         implementation system controls."

         Response: We agree that the implementation and operation of the overall ERP
         Financial System is behind schedule and over budget, but we believe that the
         draft audit report does not adequately explain why that is so. We disagree with
         the assertion that the Institution's quarterly reports were not accurate with
         respect to the ERP Project budget and the reason for the delayed
         implementation. A complete discussion of the Institution's ERP Financial
         System implementation needs to reflect the following circumstances, which are
         briefly stated here and discussed in depth in Attachment 2:

                   The lnstitution faced an urgent need to replace the Smithsonian
                   Financial System, which was on the verge of failure.
                   The lnstitution experienced unanticipated delays in starting the project,
                   which compressed the time available to implement the system using
                   best practices.
                   The Office of the Comptroller experienced significant Trust funding
                   reductions and unexpected turnover of key Federal staff.
                   The lnstitution did not fully anticipate the poor quality of the data
                   resident in the Smithsonian's legacy financial system.
                   The lnstitution did not budget adequately for user training or
                   adequately conceive all the training required.
                   The lnstitution did not budget for application software maintenance for
                   ERP Financial System Phase Ioperations in FY 2003.
                   The unanticipated failure of the Payroll Accounting and Distribution
                   System (PAYES) in October 2002 made it impossible to complete the
                   payroll system integration with the ERP Financial System in Phase I.
                   The Smithsonian was an early adopter of PeopleSol7 version 8.4, and
                   the first Federal organization to do so.
                   'The lengthy continuing resolution and the uncertainty over the FY
                    2003 budget well into the spring of 2003 delayed work on Phase 2
                    Financials or Phase 1 Human Resources until April 2003.

         The IG audit report correctly identifies inadequate staffing of the Office of
         Comptroller (OC) as one of the causes of the schedule delay and cost
         overruns. However, the report incorrectly attributes the realignment of OC
         Information Technology (IT) staff and the subsequent departure of some of the
Appendix E. Management's Comments (continued)



         former OC IT staff as a reason for the staffing shortage. The realignment was
         part of a consolidation of IT staff within the Under Secretary of Finance and
         Administration organization. The realigned OC staff performed SFS and
         PAYES application software maintenance, local area network operations, and
         desktop services under the auspices of the OCIO. Five IT staff did not leave
         on their on accord, but were dismissed because of a reduction of Trust funding.
         One was rehired as a Federal employee and continued to participate on the
         ERP technical team.

         The IG audit report correctly asserts that there were no detailed cost and
         schedule project management reports by phase or module as would normally be
         used for project management and variance cost monitoring. However, the
         Institution did track and report project progress and funds, obligated funds and
         actual Federal IT staff costs to the Office of Management and Budget (OMB) and
         the Congress on a quarterly basis.

         The Smithsonian would need to implement a true earned value management
         system to track project deliverables against cost and to monitor and report cost
         variances by phase or module. In order to do this effectively, the PeopleSoff
         projects and time and labor modules must be fully deployed. Otherwise,
         variance cost monitoring and reporting is a cumbersome manual process at best.

         Monthly review of cost and schedule project management reports would have
         provided the senior leadership with additional evidence of the distress that the
         financial system implementation was experiencing. However, we disagree with
         the IG audit report that the lack of such reports by phase or module contributed
         to the ERP Financial System schedule slippage or cost overruns. We will add the
         tracking of cost vs. budget by ERP Project phase to monthly performance reports
         provided to the Deputy Secretary and Chief Operating Officer.

         We agree with the IG audit report finding that full implementation of the ERP
         Financial System has experienced significant cost and schedule overruns.
         However, when comparing budget vs. actual cost, the IG audit report relies on
         the PI2004 OMB Exhibit 300 submission for budget information, admittedly the
         only public document available. The Exhibit 300 does not include the Trust
         funds that have been spent on implementation.

         As a consequence, the IG audit report's analysis, which includes Trust
         expenditures, is incorrect. In addition, the IG audit report does not include the
         cost of the development and production hardware and software or the cost of the
         Peoplesoft software licenses. Failure to include these costs in the total cost
         denominator of the calculation overstates the percentage of total budget
         expended and the extent to which the project is over budget.

         We also disagree with the IG audit report's categorization of development vs.
         operational costs and the assertion that FY 2004 OMB Exhibit 300 for the ERP
Appendix E. Management's Comments (continued)



         Project inaccurately reported the amounts for development and maintenance.
         The FY 2004 OMB Exhibit 300 was prepared in July 2002 and submitted to OMB
         in September 2002. The Exhibit 300 was accurate at the time of submission and
         prepared consistent with guidance contained in OMB Circular A-1 1. OMB defines
         an operational asset to mean "an asset or part of an asset that has been
         delivered and is performing the mission." The cost to develop and implement
         Phase 1 of the ERP Financial System totaled $11,033,773, and the cost to
         operate and maintain it through FY 2003 totaled $9,297,272. Expenditures for
         ERP Financial System Phase 2 activities through FY 2003 totaled $779,861. The
         budget to develop and implement Phase 1 of the ERP Financial System totaled
         $10,023,558, and the budget to operate and maintain it through FY 2003 totaled
         $1,427,499. A detailed breakout comparing the ERP Financial System Phase 1
         budget with the actual costs is provided in Appendix 2. A summary breakout is
         provided in the following chart.



                                                                           Tobl     Tobl
         Description
                                                                          Budget    Actual




         Chart 1-ERP   Financials Phase 1 Budget vs. Actual


         We agree with the IG audit report finding that the ERP team did not address
         weaknesses identified by the independent quality assurance contractor, but only
         with respect to the specific technical analysis reports cited in the report. We
         disagree with the rest of the assertion. The ERP team did take continuous
         action on quality assurance recommendations throughout the project as
         appropriate. The IG audit report cited an August 2002 review of the quality of
         the system documentation.

         Recommendationsfrom the quality assurance contractor were only one factor
         used in the decision to deploy the first phase of the ERP Financial System on
         October 1,2002. The urgent need to replace SFS, the primary financial system,
         before it failed was the overriding factor. This sense of urgency contributed to
         deploying the ERP Financials Phase 1 on schedule rather than delaying
         implementation another fiscal year. We also gave more weight in making our
         decision to deploy to the quality assurance contractor report on the successful
         ERP system pilot conducted in the July 2002, as this was an evaluation of the
         system in operation by users. The quality assurance contractor concluded,
         based on the success criteria agreed to by the development team and the user
         community that the ERP Financial System pilot was an overall success and that
         analysis of test results indicated that 94% of the test cases executed passed
Appendix E. Management's Comments (continued)



          successfully, confirming that the delivered PeopleSoft functionality was
          performing as intended. We determined that the documentation could be
          completed at a later date.

          We disagree with the IG audit report conclusion that, through more rigorous
          system controls, we could have avoided the expenditure of additional time and
          funds associated with the conversion to the ERP of data from the previous
          financial system. The data conversion software routines worked, but the SFS
          data was of poor quality. One way or another data had to be corrected, and
          there was no alternative to researching each entry. The ERP Financial System
          employs far more rigorous financial controls than SFS. The delays in the
          conversion of the spending authority information caused delays in completing the
          purchase order conversion and delays in paying vouchers. While earlier
          availability of the chartfield information and the crosswalks to SFS, and more
          rigorous testing could have revealed the scope of the problems, only manual
          research of each rejected transaction could resolve the data quality problems.

          We disagree with the IG audit report conclusion that, through more rigorous
          system controls, we could have avoided the expenditure of additional time and
          funds required to address payroll and system interfaces to the ERP. The delays
          associated with defining the chartfields precluded buildirrg crosswalks for all
          employees for payroll cost distribution through PAYES before the ERP Financial
          System Phase 1 was deployed. The unanticipated failure of PAYES in October
          2002 made it impossible to complete integration with the ERP Financial System
          Phase 1 or conduct independent tests by the quality assurance contractor. Units
          were unable to obtain accurate payroll information because of the failure of
          PAYES, not the ERP Financial System.

          We disagree with the IG audit report conclusion that the ERP Financial System
          development and implementation stages were being performed simultaneously.
          'The ERP Financial System was in operation during FY 2003, not development.
           No system is 100 percent complete or error free when it is first deployed.
           Discrepancy reports and modification requests are a normal part of application
          software maintenance and do not constitute development by another name. We
          did not anticipate the resources that would be required to resolve data quality
           problems and develop customized reports. There was one major sofhvare error
          that required correction, and it was associated with the incorrect posting of
           general ledger entry events, critical to the system's ability to support the
           Institution's Federal reporting requirements.

          We do not believe that the IG audit report accurately portrays the context of the
          statement attributed to the Chief Information Officer and the ERP Project
          Manager that documenting the approval process is not necessary because in
          their experience, the act of a sponsor approving requirements and accepting a
          system is an unnecessary paper transaction. The discussion with the IG
          auditors centered on the need for signatures. To be more accurate, the IG audit
Appendix E. Management's Comments (continued)




          report should state that the process of signed "System Decision Papersnat major
          milestone decision points as prescribed in the Defense Department system life
          cycle management process did not work. Additionally, even with signed
          requirements, if the user identifies additional requirements or a business need to
          change the requirements once in production, the changes will need to be made.
          There was an approval process in place as noted by the quality assurance
          contractor in their February 2002 technical report - "the development team is
          doing a good job but is behind schedule because requirements and
          configurations require concurrence from various end-users and approval from
          the Steering Committee." We recognize that we need to improve the method for
          documenting decisions.

          We strongly disagree with the IG audit report conclusion that the quarterly
          implementation status reports to the Office of Management and Budget and
          Congress were not accurate with respect to the ERP Project budget and the
          reason for the delayed implementation. Each quarterly report included a general
          description of the project, progress against plan, and the Federal funds obligated
          during the reporting period. The lnstitution provided accurate information and
          did not hide problems.

          For example, the 1'' quarter FY 2003 report stated that the lnstitution
          encountered problems with migrating data from the SFS and the problems
          caused delays in paying the Institution's bills. The 3rdquarter FY 2003 report
          cited problems with financial reporting. The IG audit report cites the 3rdquarter
          FY 2003 report as not being accurate because the lnstitution stated that because
          of the lengthy continuing resolution (CR) and the uncertainty over the FY 2003
          budget well into the spring of 2003, the lnstitution did not begin work on Phase 2
          Financials or Phase 1 Human Resources until April 2003. The same statement
          was made in the IS'  quarter FY 2003, and the statement is accurate. The most
          recent status report, sent in August 2003, provided progress through June 2003.
          The report for the fourth quarter of 2003 was not sent pending completion of the
          OCFO implementation review that proceeded through December 2003.

          To support the conclusion that the lnstitution misled the Congress and OMB, the
          IG audit report presents two charts in Appendix C of the report that analyze the
          effect of the CR on the ERP implementation. This analysis is based on
          contractor billings from July of 2001 through June of 2003. A closer analysis
          comparing spending in the months leading up to the implementation to spending
          in the months following the system's deployment demonstrates a significant
          reduction following the system's deployment in October 2002.

          Comparing the five-month period of June--October 2002 with the November
          2002-March 2003 period shows a 25% reduction in spending during the CR
          period. Because of the continuing resolution and the uncertainty of the FY 2003
          budget, the lnstitution dramatically scaled back planned system integration
          contractor work in November 2002. To support the planned ramp up of ERP
Appendix E. Management's Comments (continued)




          work in FY 2003,the ERP budget was budgeted to be twice as large as the FY
          2002 budget ($12 million vice $6.2 million). The continuing resolution and
          ongoing budget debate made it uncertain whether the planned FY 2003 budget
          increase would occur.

          Also, by including in the analysis the early months of the contract period when
          there was little system integrator activity, the IG audit report skews the data by
          reducing the overall average billings for comparison purposes. The following
          chart compares the spending before and during the continuing resolution period.

                                                                                                                                         - -
                                       Comparisonof Spendlng Before and Durlng Continuing Resolution




                                                                      ...
                                                                                                                                                                                        -
            r      s7w.Waw                     --                                                                        ....
                                                                                                                                               -                .      .-.. . . .
                                                                                                                                                            Jun 02 - Oct 02 hvoices
                                                                                                                                                                                    -. .-
                                                                                                                                                                                         i
                                                                                                                                               ..........   Nov 02 - Mar 03 hvoices
                                              ........       .... 

            -t                                                                                                                                 .. -
 NovO2-Mar03-Averagej
            -PC
                   s.oo,owo

                     .
                             o~
                          ..........

                          : ..
                   ~~oom,oD             ...
                                                     ...

                                                              ...     --- ---- . . . . --   - .
                                                                                                    .

                                                                                                        -   .
                                                                                                                .   .           -~   .

                                                                                                                                . . . . .
                                                                                                                                           .
                                                                                                                                               -  -Jun--02 - Oct 02 -Average
                                                                                                                                                            --
                                                                                                                                                            .            .....
                                                                                                                                                                         .




                                                                                            -- .
                                                                                            .                           -.... 

                                                         7                     3                4

                                                                            Months


                  .
                  ...
                    ...                           --                                .-              -               -                                        -- -            --..A
                                                                                                                                                                                            I   





          Chart 3-Comparison of Spending Before and During Continuing Resolution


          Appendix C also makes the assertion that the level of contractor billings was due
          to the change in the contract type from fixed-price to a time and materials type
          contract. It is inappropriate to make this assertion since the work performed by
          the contractor during this period (primarily data conversion, end-user support,
          and issue resolution) was not appropriate for a fixed price type of contract. (See
          discussion of Issue 3 for details.)

          The statement in Appendix C that there was continued development work on
          Phase Iduring this period is also misleading. Several reports were developed
          but not released for use by the Institution until after the system was deployed,
          with the contractor staff costs being picked up after the system was deployed;
          however, the contractor staff costs associated with those activities represent only
          a small percentage of the contractor billings during the CR period. The level of
          the contractor billings during the CR period was higher than anticipated due to
          the issues that were presented in the reports to Congress for this period.

         ( We respectfully request that Appendix C be deleted from the final report.
ippendix E. Management's Comments (continued)



         Issue 1Recommendations

         It is recommended that the Chief Financial Officer:

               Recommendation 1: Realign budgetary resources from OClO to OCFO
               to support and assist OCFO in the remaining financial modules.

               Comment: Concur. Funds will be realigned within the ERP program from
               the OClO ERP Project to establish a dedicated functional team to support
               the implementation of the remaining financial system software modules
               and to guide the enhancement of the financial system software modules
               in operation. This action will further increase the project's overall cost and
               cause further schedule slippage. However, this action is essential to the
               system's future success. The program will be re-baselined and a new
               budget and schedule developed once the details of the realignment are
               complete.

               Recommendation 2: Establish the ERP financial system implementation
               as a cost center or project to accumulate and track project costs for
               management and asset capitalization purposes.

               Comment: Concur. The Office of Planning, Management, and Budget in
               collaboration with the OClO will establish the necessary institutional
               project codes to assign obligations and expenditures directly to the ERP
               project by phase (both financials and human resources) and by
               development and operations and maintenance.

                Recommendation 3: Ensure that future congressional and Ofice of
                Management and Budget status reports are more accurately prepared
                and presented.

                Comment We concur that reports to the Congress should be accurate.
                However, we strongly disagree with the IG audit report conclusion that the
                implementation status reports to the Off~ceof Management and Budget
                and Congress were not accurate. Each quarterly report included a
                general description of the project, progress against plan, and the Federal
                funds obligated during the reporting period. The Institution provided
                accurate information and did not hide problems. The third quarter report
                cited by the IG audit report was prepared in June 2003 and was accurate
                when it was written. We commit to ensuring that these reports are issued
                more timely and reflect the latest information available about the program.
                We will also add the tracking of cost vs. budget by ERP Project phase to
                the monthly performance reports provided to the Deputy Secretary and
                Chief Operating Officer.
4ppendix E. Management's Comments (continued)



          It is recommended that the Chief Information Officer coordinate with the Chief
          Financial Officer to:

                Recommendation4: Establish a formal process to track and resolve
                implementation quality control issues and recommendations.

                Comment: Concur. The OCIO has established a formal system
                development life cycle management process that includes processes to
                track and resolve implementationquality control issues and
                recommendations. The life cycle management processes are defined in
                SD 920 and a series of supporting technical standards and guidelines
                published between December 2002 and August 2003. The OCIO also
                established a Technical Review Board (TRB) as part of the process. The
                TRB's objectives are to: (1) improve the overall level of project success,
                system quality, and productivity; and (2) ensure that risk is reduced to an
                acceptable level by completing assessments at key project milestones.
                We will ensure that future ERP Financial System Phases are reviewed by
                the Board. ERP Human Resource Management System progress has
                already been reviewed by the TRB.

                Recommendation 5: Obtain a status assessment from the ERP
                contractor of all current ERP-defined financial requirements to date and
                require a formal implementation status report at least monthly.

                Comment: Concur. The OCIO will rely on the quality assurance
                contractor to assess the current ERPdefined financial requirements and
                prepare a Technical Analysis Report on the findings. We will require the
                system integration contractor to provide a status assessment report as
                part of the monthly review meetings.

                Recommendation6: Evaluate the current status of outstanding
                requirements to prioritize them to meet Institution needs.

                Comment: Concur. The OCIO and OCFO will jointly review all
                outstanding issues, problems, and requirements, and the OCFO, with
                technical guidance from the OCIO, will prioritize them.

                 Recommendation 7: Comply with the Smithsonian lnstitution life cycle
                 management policy by establishing both a formal process to ensure
                 requirements are approved by an OCFO designee and a formal user
                 acceptance process for the remainder of the project.

                 Comment: Concur. The OCIO and OCFO will work together to develop
                 a Service Level Agreement (SLA) that defines the requirements approval
                 and user acceptance processes. The SLA will follow the guidance
Appendix E. Management's Comments (continued)



                contained in the Life Cycle Management Manual TSG-IT-920-01 dated
                December 6,2002.


          Issue 2: Phase 1 Financial System Implementation Usefulness

          "Current ERP financial system management reports are cumbersome, inefficient,
          and do not meet internal and external management needs. This condition
          existed because there was a fundamental misunderstanding of how reporting
          and operational training requirements would be met. In addition, two ERP plans,
          the "train the trainer" plan and help-desk plan, were not fully established, making
          the system less useful. As a result, the system is not meeting user needs,
          Institution staff are frustrated, and confidence in the system has deteriorated
          significantly."

          Response: We agree with the IG audit report finding that PeopleSol?-provided
          financial reports do not meet all the Institution's internal financial management
          reporting needs and none of the Federal reporting needs-no commercial
          financial management software product meets Federal reporting needs. As part
          of the initial implementation a core set of 14 customized and 56 PeopleSoft-
          provided financial reports were developed to support the needs of the units and
          of various Smithsonian organizations with special reporting requirements. Since
          the ERP implementation, there has been a steady request for additional reports
          and enhancements to existing reports based on users experience with the
          system and evolving business needs. There are currently 114 reports available
          in PeopleSol?. Of 114 reports, 57 are Peoplesoft-provided reports and 57 have
          been custom-developed.

          In addition to the on-line reports, a significant number of online-queries have
          been developed using the PeopleSoft Query tool to support various reporting
          needs. The use of the PeopleSoft Query reporting tool has been expanded
          beyond specialized needs within central offices such as Office of Planning,
          Management, and Budget and the Office of the Comptroller to include queries for
          unit needs as well. An added benefit of using the Query tool is that query results
          can be downloaded into Microsoft Excel.

          It is an overstatement that there was a "fundamental misunderstandingnbetween
          the Office of the Chief Financial Officer and the Office of the Chief Information
          Officer on how reporting requirements would be met. But we agree that
          communication between the two offices would have benefited from a more
          formal reports requirements and review process. We believe that the primary
          cause was that subject matter experts were not readily available to define
          reporting requirements because of the severe staffing shortfalls in the
          Comptroller's Office.
Appendix E. Management's Comments (continued)




          lssue 2 Recommendations

          It is recommended that the Chief lnformation Officer coordinate with the Chief
          Financial Officer to:

                Recommendation I:Determine which ERP reporting requirements have
                not been fully addressed and establish a plan that prioritizes these
                outstanding needs to meet the reporting needs of the Office of the
                Comptroller, the Office of Sponsored Projects, the Development Office,
                the Office of the Treasurer, and the units.

                Comment: Concur. The Chief lnformation Officer will work with the Chief
                Financial Officer to determine which financial reporting requirements have
                not been met and establish a prioritized plan to meet the Institution's
                financial reporting needs.

                Recommendation2: Establish a process for reviewing user help-desk
                assistance requests to determine what remedies are necessary to
                address user needs, such as additional training or Chief Financial Officer
                Bulletins.

                Comment: Concur. The Chief lnformation Officer will work with the Chief
                Financial Officer to establish a process for reviewing user help-desk
                assistance requests to identify widespread problems and to determine
                whether the problem can be resolved through training, Frequently Asked
                Questions (FAQs), andlor CFO Bulletins, or whether revisions to the ERP
                Financial System software are needed to correct errors and make
                enhancements.


          lssue 3: ERP Implementation Contract

          "The current ERP contract elements of design, development, implementation,
          training, and maintenance support changed from a fixed-price contract to a cost-
          reimbursement contract. This change was requested by the OClO because it
          was believed necessary to respond flexibly to the Institution's system
          implementation requirements. However, this change increased the Institution's
          risk of project cost overruns since the responsibility for monitoring cost controls
          and efficiency shifted from the contractor to the Institution. In addition, the
          current contract scope now includes many tasks that could be separated into
          different contracts and monitored separately to minimize costs."

          Response: The first task of the ERP system integration contract was awarded
          as a fixed-price contract. The use of a fixed price contract is appropriate when
          requirements are well defined. In the case of a system development project, a
ippendix E. Management's Comments (continued)




         cost-plus-award contract should be used as that contract type allows for
         unknowns as requirements are defined and refined during the development
         process. However, neither the Office of Contracting nor OClO has the staff
         necessary to administer such a contract. The IG audit report correctly identies
         the reasons for the change from a fixed-price contract to a cost reimbursable
         contract. We agree with the IG audit report conclusion that some tasks such as
         developing and providing training can be issued as fixed price task orders.


         Issue 3 Recommendations

         It is recommended that the Chief lnformation Officer coordinate with the Director
         of the Office of Contracting to:

               Recommendation 1: Review the current contract structure and type and
               determine whether a different contract structure is necessary to
               adequately support the development and implementation of the remaining
               modules of the ERP.

               Comment: Concur. The Chief lnformation Officer will work with the
               Director of the Office of Contracting to identify work that can be issued as
               fixed-price task orders and use fixed-price task orders wherever practical.

               Recommendation 2: Assess the current contract oversight process to
               determine if additional contract expertise is needed for monitoring the
               development and implementation of the remaining modules of the ERP.

               Comment: Concur. The Institution will strengthen reviews of the contract
               system integrator's progress and performance through monthly reviews.
               The OClO ERP Financial System Project Manager will lead the monthly
               reviews. The reviews will be attended by the Institution's contract system
               integrator, representatives of the ERP team of functional and technical
               experts, the CFO andlor CFO designated staff, and users from
               Smithsonian units as appropriate.

                The purpose of the monthly review will be to assess progress, adherence
                to schedule and budget, identify problems and to direct any necessary
                corrective actions. Examples of issues to be addressed are: (1) the status
                of modification requests (MRs) or discrepancy reports (DRs); (2)
                implications on the cost and schedule of requested changes; (3) technical
                problems encountered by the contract system integrator; (4) implications
                and trade-offs for implementing requested customizations to the
                commercial software; and (5) problems encountered by the contract
                system integrator with obtaining functional requirements.
Appendix E. Management's Comments (continued)



                                                                              Attachment 2

          Understanding the Issues Associated with ERP Financial Implementation

          A complete discussion of the Institution's ERP Financial System implementation
          needs to reflect the following circumstances:

                   In FY 2001, the Institutionfaced an urgent need to replace the
                   Smithsonian Financial System (SFS). SFS, the Institution's primary
                   financial system, was in a fragile state, and the Institution's leadership
                   was concerned that SFS could fail. SFS was based on a
                   technologically obsolete, commercial financial management software
                   product purchased in 1986 and implemented by the Smithsonian in
                   1996. Upon implementation, the Smithsonian customized the
                   commercialsoftware product it purchased and never completed its
                   documentation, which meant it could not be modified without serious
                   risk of failure. The version operated by the Smithsonian had not been
                   supported by its vendor since 1997. In addition, the vendor was
                   experiencingfinancial difficulty and was de-listed from NASDAQ. This
                   sense of urgency contributed to a decision to deploy the ERP Financial
                   System Phase 1 on schedule with some known deficiencies rather
                   than delaying implementationanother fiscal year. It also led to a
                   compromiseof best practice proceduresfor rigorous independent
                   testing and quality assurance.

                    Delays in establishing ERP Work Groups, obtaining reprogramming
                    authority, and reaching consensus among Smithsonian units on chart
                    fields including program codes, and department ID codes compressed
                    the time available to perform more rigorous unit, system, and
                    independenttesting and complete system documentation and added
                    to the system integration costs.

                    The Office of the Comptroller (OC) experienced substantial reductions
                    in Trust funding in FY 2001-2003 and unexpectedturnover of key
                    Federal staff. The unanticipated loss of Trust funds compounded the
                    problem of supporting the ERP implementationwith the appropriate
                    number of dedicated staff with the requisite functional expertise. The
                    absence of functional support during implementation led to delays in
                    finalizing requirementsfor the general ledger and accounts payable
                    modules. Subject matter experts were not readily available to define
                    functional requirements or to perform acceptance testing in a timely
                    manner. These delays compressed the time available to perform more
                    rigorous unit, system, and independenttesting and complete system
                    documentation and added to the system integration costs.




                                                 14
Appendix E. Management's Comments (continued)




                  The lnstitutionencountered severe problems because the quality of
                  the data resident in SFS was far worse than suspected. The data
                  conversion software routines worked, but information required to
                  complete conversion was in many instances missing or incorrect in
                  SFS. The data migration process required the conversion of about
                  44,000 vendors and 16,583 open purchase orders, and the conversion
                  of availablespending authority for certain Federal no-year funds and
                  non-allocated Trust funds requiring inception-to-date budget and
                  expense information. The ERP FinancialSystem employs far more
                  rigorous financial controls than SFS, and as a consequence, was
                  intolerant of missing or incorrect data. The delays in the conversion of
                  the spending authority information caused delays in completing the
                  purchase order conversion and delays in paying vouchers. The
                  "learning curve" associated with deploying the new system also
                  contributedto the delays in resolving data-related problems. Manual
                  research of each rejected transactionwas required to resolve the
                  problems. The lnstitution relied on the system integration contractor to
                  help resolve the data quality problems, which contributed to
                  unanticipated costs following the completion of Phase I.

                  The lnstitution did not adequately budget for user training or
                  adequately conceive all of the training required. As a consequence,
                  the training that was provided was inadequate for the Institution's
                  needs. The ERP project-training budget was estimated based on a
                  "Train the Trainer" approach prior to knowing who would be available
                  to make the concept a reality. One of the responsibilitiesof the ERP
                  Work Groups was to develop and deliver end-user training for each
                  ERP software module. This approach was never implemented
                  because the ERP Work Group members were not dedicated fulltime to
                  the project and did not have the requisite skills to develop and deliver
                  ERP training. While the system integrator, Office of the Chief
                  InformationOfficer (OCIO) staff, and SAO staff prepared and provided
                  131 formal ERP training classes that covered purchasing,commitment
                  control, accounts payable, unit specific training to 1,661 ERP users,
                  additional training is needed on what customized reports and
                  PeopleSoff provided reports are available and how to use them.
                  Additional training is also needed for sophisticated users, including unit
                  and OCFO staff, on how to use the system most effectively. The
                  revised training approach and the use of the system integration
                  contractor to prepare and deliver the bulk of the training contributed to
                  unanticipated costs following the completion of Phase 1.
Appendix E. Management's Comments (continued)




                  The lnstitutiondid not budget for applicationsoftware maintenance for
                  ERP FinancialSystem Phase 1 operations in FY 2003. Most of the
                  funds spent on system integrationsupport in FY 2003 were to provide
                  user operational support, perform system modifications,fix software
                  errors, prepare custom reports, deliver training, and resolve data
                  quality problems. These activities, except for resolving data quality
                  problems and delivering initialtraining, are generally classified as
                  application software maintenance. The need to redirect funds from
                  ERP Financial System Phase 2 development to perfom Phase 1
                  application software maintenance reduced the funds available for
                  Phase 2 implementation.

                  The unanticipated failure of the Payroll Accounting and Distribution
                  System (PAYES) in October 2002 made it impossibleto complete the
                  payroll system integrationwith the ERP FinancialSystem during
                  Phase 1. As a consequence, Smithsonian units were not able to
                  obtain actual payroll expenses for the first 8 months of FY 2003. The
                  urgent need to correct this situation and the labor-intensive nature of
                  the fix necessitated the redirection of OCFO and OCFO staff
                  resources, which contributedto the delay in Phase 2 and unanticipated
                  project costs. Additionally, units could not authoriitively forecast their
                  FY 2003 budget position for most of the fiscal year because
                  information establishing unit FY 2003 starting balances was not
                  available. The extraordinary effort requiredto validate unit starting
                  balances diverted OCFO and OClO staff and resources, which
                  contributed to the delay in Phase 2 and unanticipated project costs.

                  The lnstitution decided to implement PeopleSoft Financialsversion 8.4
                  vice version 7.5.The Smithsonian was an early adopter of PeopleSoft
                  version 8.4 and the first Federal organization to do so. Version 8.4
                  was the preferred version for the Smithsonian because it combined the
                  functionality of PeopleSoff'sCommercial and Government and
                  Education software into a single, web-based product. We knew that
                  the PeopleSoft software met the published government standard for
                  basic financial management requirements, but would not support U.S.
                  Treasury reporting requirements. No commercially available financial
                  software does. The Institutiondecided to deploy PeopleSoftFinancials
                  version 8.4 instead of version 7.5to: (1) avoid costly customizations as
                  the version 8.4 satisfied some of the Institution's requirementsthat
                  were not satisfied in version 7.5;(2) avoid future migration costs in the
                  out-years; and (3) avoid desktop deployment costs. Implementationof
                  version 8.4 required training for both contractor and in-house staff.
                  Unfortunately, Peoplesoft-provideddocumentation was incomplete
                  and the delivered software contained errors. These delays
                  compressedthe time available to perform more rigorous unit, system,



                                                16
